              U.S. Department of Energy
              Office of Inspector General
              Office of Inspections and Special Inquiries




Inspection Report

Internal Controls for Excessing and
Surplusing Unclassified Computers at
Los Alamos National Laboratory




DOE/IG-0734                                  July 2006
INTERNAL CONTROLS FOR EXCESSING AND SURPLUSING
UNCLASSIFIED COMPUTERS AT LOS ALAMOS NATIONAL
LABORATORY

TABLE OF
CONTENTS


              OVERVIEW

              Introduction and Objective     1

              Observations and Conclusions   2


              DETAILS OF FINDINGS

              Criteria                       3

              Sanitization Process           3

              Hard Drive Removal             4


              RECOMMENDATIONS                6


              MANAGEMENT COMMENTS            6


              INSPECTOR COMMENTS             6


              APPENDICES

              A. Scope and Methodology       7

              B. Management Comments         8
Overview

INTRODUCTION    The Department of Energy’s (DOE’s) Los Alamos National
AND OBJECTIVE   Laboratory (LANL) is one of the largest multidisciplinary science
                institutions in the world. The primary national security missions of
                LANL are to help ensure the safety and reliability of the Nation’s
                nuclear stockpile, prevent the spread of weapons of mass
                destruction, develop strategies to mitigate global threats, and
                protect the United States from terrorist attacks. LANL is managed
                by the University of California for the Department’s National
                Nuclear Security Administration (NNSA).

                Computers are used extensively in the full range of operations at
                LANL, to include the processing of classified and unclassified
                information. In accordance with DOE Property Management
                Regulations, when computer equipment is no longer needed or
                becomes old or obsolete, LANL program officials may determine
                that the equipment is excess to their needs. Excess equipment
                should be screened to determine if it can be utilized by other
                Laboratory or Federal organizations. If the excess equipment is
                not claimed, it becomes surplus to DOE and should be offered
                through donation to State agencies and other organizations. If the
                surplus equipment is not claimed, it should be disposed of as scrap
                or sold at auction.

                Under DOE policy, computer equipment that is declared surplus
                must be sanitized before it is released to any outside organization.
                In addition, the Property Management Manual for LANL’s
                property disposal subcontractor requires that hard drives be
                removed before any computers are sold.

                On August 13, 2005, an Apple MAC G4 computer declared excess
                by LANL was sold at an Albuquerque auction house to a local
                television station employee. On August 25, 2005, the television
                station reported that the computer hard drive contained LANL
                documents. A follow-on report suggested that some of those
                documents were marked as being classified. We subsequently
                determined that this was not the case, but that the computer had
                been released from the Laboratory with a hard drive that contained
                unclassified LANL documents. As a result, we initiated an
                inspection to determine if LANL had complied with internal
                controls applicable to excessing and surplusing the Apple MAC G4.




Page 1                                 Internal Controls for Excessing and
                                       Surplusing Unclassified Computers at
                                       Los Alamos National Laboratory
OBSERVATIONS AND   We concluded that LANL did not comply with internal controls
CONCLUSIONS        applicable to excessing and surplusing the Apple MAC G4. This
                   resulted in the unauthorized release of a computer hard drive
                   containing LANL documents on matters such as budget, time and
                   attendance, and unclassified procedures for transmitting classified
                   information. Specifically, we found that LANL had not:

                   •   Sanitized the hard drive, as required, prior to processing the
                       computer as excess/surplus; and,

                   •   Removed the hard drive, as required, prior to transferring the
                       computer for sale at auction.

                   The Apple MAC G4 was excessed in June 2005, along with seven
                   other computers. In light of the internal control failures relating to
                   excessing and surplusing the Apple MAC G4, we concluded that
                   there was no assurance that the hard drives for the seven other
                   computers were sanitized prior to their being processed as excess
                   equipment. Because they had already been sold and turned over to
                   the purchasers, we were unable to determine whether the seven
                   computers still contained their hard drives when they were sent to
                   auction. We did, however, inspect a sample of other LANL
                   computers awaiting sale at the Albuquerque auction house. We
                   did not find evidence that these computers still contained hard
                   drives.




Page 2                                            Observations and Conclusions
Details of Findings

CRITERIA              DOE N 205.12, “CLEARING, SANITIZING, AND
                      DESTROYING INFORMATION SYSTEM STORAGE MEDIA,
                      MEMORY DEVICES, AND OTHER RELATED HARDWARE,”
                      which was in effect at the time the Apple MAC G4 was declared
                      excess, stated that DOE, including NNSA, contractors must ensure
                      that no unauthorized information can be retrieved from
                      unclassified DOE computer equipment that is to be transferred or
                      declared surplus. The Contractor Requirements Document (CRD)
                      for DOE N 205.12 stated that systems or equipment declared
                      surplus or donated to outside organizations must be sanitized.
                      Further, it stated that individuals sanitizing computer equipment
                      must, at a minimum, affix a label that: (1) describes the
                      equipment; (2) provides a statement indicating that the equipment
                      has been cleared and/or sanitized in accordance with DOE N
                      205.12; and (3) contains the date, the printed name, and the
                      signature of the individual certifying that the process has been
                      successfully completed. In addition, the CRD required the certifier
                      to prepare separate documentation recording the same information
                      and the contractor to maintain this documentation for a minimum
                      of 5 years. The successor directive to DOE N 205.12 contains
                      similar requirements.

                      LANL’s Property Management Manual, Chapter 14, “Excess and
                      Salvage Property,” states that the users of unclassified computing
                      equipment must sanitize excess/salvage computers. The manual
                      states that the computer users are required to delete files containing
                      sensitive, personal, or proprietary data. In addition, LANL’s
                      property disposal subcontractor’s Property Management Manual
                      states the subcontractor will sanitize computers intended for
                      reissue either internally or externally. In addition, this manual
                      states that the subcontractor “shall not sell any computers/laptops
                      with hard-drives in them.”

SANITIZATION          We found that LANL had not sanitized the Apple MAC G4 hard
PROCESS               drive, as required, prior to processing the computer as
                      excess/surplus. Specifically, we determined that the hard drive of
                      the Apple MAC G4 sold at the Albuquerque auction house in
                      August 2005 had not been sanitized as required by DOE and
                      LANL policy. The hard drive contained LANL documents on
                      matters such as budget, time and attendance, and unclassified
                      internal procedures for transmitting classified information.
                      Further, because of the breakdown in internal controls, there was
                      no assurance that the hard drives for seven other computers
                      excessed at the same time as the Apple MAC G4 had been
                      sanitized prior to disposal.



Page 3                                                              Details of Findings
             The Apple MAC G4 had been used in an unclassified LANL
             Training Facility. The LANL official responsible for disposal of
             property at this facility had declared the computer excess to the
             facility’s needs. In June 2005, a LANL “Excess/Salvage
             Equipment Request Form” was prepared, indicating that the Apple
             MAC G4, along with seven other computers, had been sanitized by
             this official. However, LANL could not produce the
             documentation required by DOE N 205.12 with the date, the
             printed name, and the signature of the person certifying that the
             process had actually been completed for all eight computers.
             Further, the signatures and dates required on the excess salvage
             form certifying that “there is no reason not to release this property
             to the general public” were left blank.

             The LANL official recalled declaring the computer equipment
             excess, but had no specific recollection or record showing that the
             computer hard drives had been sanitized. Since the computers had
             already been sold at auction, we could not determine whether the
             required labels had been affixed to the computers verifying that
             they were sanitized.

             We also determined that although all eight computers were
             reusable and that the Apple MAC G4, in particular, was a good
             candidate for reutilization within the Laboratory, the computers
             were erroneously identified in LANL’s Excess Property
             Information System as “salvage.” Salvage was defined as property
             that is obsolete, disassembled, or damaged to an extent that it could
             not be used for its original purpose. Had the computers been
             properly identified, they might have had a continuing useful life at
             the Laboratory.

HARD DRIVE   We found that LANL had not removed the Apple MAC G4 hard
REMOVAL      drive, as required, prior to transferring the computer for sale at
             auction. We were unable to determine whether the other seven
             computers still contained hard drives when they were sent to
             auction. This was due to the fact that the equipment had already
             been sold and was in the possession of the purchasers.

             On July 5, 2005, after the Apple MAC G4 was not claimed for
             reutilization internally, it was picked up by the LANL property
             disposal subcontractor. On July 7, 2005, this computer was sent to
             auction with a sticker attached to the central processing unit stating
             “HARD DRIVE REMOVED.”

             According to a subcontractor spreadsheet that documented the
             auction lot number, the property barcode, the serial number, the



Page 4                                                     Details of Findings
         model, and the manufacturer, the computer’s hard drive was
         removed before it was sent to auction. The spreadsheet was
         initialed by the subcontractor employee responsible for assuring
         that hard drives were removed before computers were sent to
         auction. The employee stated that his initials on the spreadsheet
         indicated that either he had removed the hard drive or the hard
         drive had already been removed when he inspected the computer
         before sending it to the auction house.

         With regard to the Apple MAC G4 in question, the subcontractor
         employee could not recall whether he removed the hard drive or if
         it had already been removed before it was picked up by the LANL
         property disposal subcontractor. He speculated that the Apple
         MAC G4 may not have contained a hard drive when it was
         received by the property disposal subcontractor. The employee
         also speculated that it was possible that the Apple MAC G4 may
         have had a second hard drive that had not been identified at the
         time the computer was sent to auction.

         There is a box on the “Excess/Salvage Equipment Request Form”
         that can be checked to indicate “Hard drive removed.” We
         examined the form and determined that the box had not been
         checked to indicate that the hard drive of the Apple MAC G4 had
         been removed. In addition, we found no evidence that the Apple
         MAC G4 had a second hard drive.

         Although the seven computers excessed with the Apple MAC G4
         were not available for examination, we inspected a sample of other
         LANL computers awaiting sale at the Albuquerque auction house.
         We did not find evidence that these computers still contained hard
         drives.




Page 5                                                Details of Findings
RECOMMENDATIONS   The Department has experienced a number of instances throughout
                  the complex wherein computers and related hardware have been
                  disposed of inappropriately. Given the potential sensitivity of the
                  data residing in the Department’s systems, even the unclassified
                  systems, it is important that excessing procedures be carefully
                  followed. Consequently, we recommend that the Manager, Los
                  Alamos Site Office, ensures that:

                  1. All computers declared excess/salvage are sanitized according
                     to DOE and LANL policy.

                  2. All computer hard drives are removed prior to any sale of
                     surplus computer equipment, as required by local procedures.

                  3. The condition codes used for excess/salvage property are
                     accurately input to LANL’s Excess Property Information
                     System, so that the potential for reuse at the Laboratory is
                     maximized.

MANAGEMENT        In comments on a draft of this report, NNSA concurred with our
COMMENTS          recommendations and stated that the draft report was consistent
                  with the observations and findings of the Laboratory’s internal
                  audit team. NNSA stated that actions have been taken that meet
                  the intent of our recommendations.

INSPECTOR         We found management’s comments to be responsive to our report
COMMENTS          recommendations.




Page 6                                   Recommendations
                                         Management and Inspector Comments
Appendix A

SCOPE AND     We conducted the majority of our fieldwork from August 2005
METHODOLOGY   though September 2005. Our review included interviews with
              DOE officials from the NNSA Service Center and the Los Alamos
              Site Office, officials from LANL Property Management, and
              subcontractor employees. We also reviewed applicable policies
              and procedures regarding property management.

              This inspection was conducted in accordance with the “Quality
              Standards for Inspections” issued by the President’s Council on
              Integrity and Efficiency.




Page 7                                             Scope and Methodology
Appendix B




Page 8       Management Comments
Appendix B (continued)




Page 9                   Management Comments
                                                                    IG Report No. DOE/IG-0734

                           CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its
products. We wish to make our reports as responsive as possible to our customers’ requirements,
and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
you may suggest improvements to enhance the effectiveness of future reports. Please include
answers to the following questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the inspection would have been helpful to the reader in understanding this
   report?

2. What additional information related to findings and recommendations could have been
   included in the report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report’s overall
   message clearer to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues
   discussed in this report which would have been helpful?

5. Please include your name and telephone number so that we may contact you should we have
   any questions about your comments.


Name                                          Date

Telephone                                     Organization


When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

                               Office of Inspector General (IG-1)
                                     Department of Energy
                                    Washington, DC 20585

                                  ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of
Inspector General, please contact Judy Garland-Smith at (202) 586-7828.
The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
  effective as possible. Therefore, this report will be available electronically through the Internet at the
                                             following address:

                   U.S. Department of Energy Office of Inspector General Home Page
                                        http://www.ig.doe.gov

       Your comments would be appreciated and can be provided on the Customer Response Form
                                      attached to the report.
